              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Transuranic Waste Retrieval and
Processing at the Hanford Site




DOE/IG-0624                                 October 2003
TRANSURANIC WASTE RETRIEVAL AND PROCESSING AT
THE HANFORD SITE

TABLE OF
CONTENTS



               Project Management

               Details of Finding ....................................................................... 1

               Recommendations and Comments ........................................... 4


               Appendices

               Prior Audit Reports ..................................................................... 7

               Objective, Scope, and Methodology .......................................... 9

               Management Comments .......................................................... 11
PROJECT MANAGEMENT

Background                In 1996, the Department of Energy (Department) amended its Tri-Party
                          Agreement with the Environmental Protection Agency and the State of
                          Washington regarding cleanup of the Hanford Site. Included in the
                          amendment was an enforceable milestone that the Department would
                          remove about 10,000 containers of transuranic (TRU) waste from
                          Trench 4, located in Hanford's Low-Level Burial Grounds, by the end
                          of Fiscal Year (FY) 2004. The Richland Operations Office established
                          a related goal to process and ship all of the site's legacy TRU waste –
                          estimated at about 38,000 containers – to the Waste Isolation Pilot
                          Plant (WIPP) by 2027.

                          In 2002, the Office of Environmental Management began a program to
                          accelerate risk reduction and cleanup across the Department complex.
                          As part of this program, Environmental Management developed
                          performance management plans with each site to identify specific
                          initiatives and deadlines for accelerating risk reduction. In August
                          2002, the Richland Operations Office issued its Hanford Performance
                          Management Plan, and revised its performance goal for processing and
                          shipping TRU waste to WIPP from 2027 to 2015.

TRU Waste Retrieval and   The Department faces significant challenges in its efforts to retrieve and
Processing                process TRU waste at the Hanford Site. As of July 2003, none of the
                          TRU waste containers had been removed from Trench 4. Previous
                          plans called for the removal of 1,200 containers in FY 2002 and 2,000
                          containers in FY 2003. While Richland anticipates eventually being
                          able to ramp up its retrieval effort to 7,000 containers annually, even at
                          that rate, the milestone will not be met.

                          Required steps for retrieval of TRU waste containers were identified in
                          the 2002 Transuranic Waste Retrieval Project Execution Plan. This
                          document specified a number of actions that would need to be taken in
                          order for the milestone to be met, including the need to hire and train
                          additional staff, perhaps as many as 20 individuals. Some or all of the
                          new hires will require several months' training in the technical aspects
                          of waste retrieval. To further complicate the retrieval process, a high
                          level of hazardous carbon tetrachloride, recently identified under
                          Trench 4, has created additional concerns that must be resolved before
                          the waste can be removed. Richland estimates this could delay retrieval
                          up to seven months. As the milestone approaches, dealing with
                          unexpected contingencies, such as the carbon tetrachloride concern,




Page 1                                                                          Details of Finding
         become more difficult. The Richland Operations Office Manager stated
         that, in addition to these concerns, a number of issues including
         renegotiating the milestones must be resolved before a definitive
         retrieval rate can be identified and achieved.

         Also, the audit disclosed that the Waste Retrieval and Processing
         (WRAP) facility, the facility intended to process TRU waste, has
         operated at significantly less than full capacity. According to the May
         2002 WRAP Final Safety Analysis Report, the facility was designed to
         receive and process up to 3,400 containers of TRU waste and 3,400
         containers of low-level waste annually. However, in its first 4 years of
         operation, the facility processed an average of less than 1,300 containers
         of TRU waste per year, and processing for FY 2003 is expected to
         increase only slightly. In fact, only about 6,700 containers have been
         processed through the WRAP facility since FY 1999, including 1,579
         through the first 8 months of FY 2003. At this rate, Richland will
         process about 20,000 containers by 2015, well short of its 38,000-
         container goal.

         Environmental Management personnel stated that the WRAP was not
         capable of processing TRU waste at or near its design capacity due to the
         additional time required for repackaging and visually examining wastes
         in heat-sealed bags at the Hanford Site. However, they were not able to
         estimate WRAP's actual capacity. While we recognize that the heat-
         sealed bags required additional processing time, based on our review of
         WRAP processing rates and staffing levels and discussions with
         Richland personnel, we concluded that WRAP is capable of processing
         substantially more than 1,300 containers per year.

         The Department has initiated a plan to accelerate WRAP processing
         rates, beginning in FY 2004, to meet the 2015 milestone. During the
         audit, the low-level waste processing line was being converted to a TRU
         waste processing line to allow more TRU waste to be processed.
         Further, processing will be accelerated with the help of onsite mobile
         units to perform three major characterization activities: non-destructive
         assay, headspace gas sampling, and real-time radiography. Management
         determined that the mobile units would be more economical for these
         activities based on FY 2003 cost estimates. Also, mobile units are
         funded through the Carlsbad Field Office's budget rather than Richland's
         budget. Thus, the use of mobile units would allow Richland to use more
         of its funds for other waste processing activities, such as prescreening




Page 2                                                          Details of Finding
                   and repackaging. The first mobile unit arrived at the Hanford Site in
                   June 2003 and could be certified for operations by December 2003.
                   Richland plans to characterize about 4,000 drums of waste per year
                   using the first mobile unit.

                   If WRAP is operated at full capacity, using both lines to process TRU
                   waste, attainment of the 2015 goal is possible. However, as noted,
                   significant issues must be resolved before definitive retrieval rates can
                   be identified.

Funding and Cost   Richland has never fully funded its TRU waste retrieval and processing
Analyses           projects. For example, in FY 2002, funding for the TRU waste retrieval
                   project was reduced from about $2.5 million to about $1.6 million.
                   Also, funding for the WRAP facility project was reduced from about
                   $15 million in FY 2001 to about $10 million in FY 2002. In FY 2003,
                   funding for the TRU retrieval project was increased to $10 million to
                   reflect the new acceleration goal, while funding for the WRAP facility
                   remained at about $10 million. As a result of budget cuts, WRAP
                   staffing declined from 72.5 full-time equivalents in FY 2000 to 62 in
                   FY 2003. Richland estimates that 146 full-time equivalents would be
                   required to operate the facility at full capacity. Funding for the projects
                   was reduced to provide more funds for the Plutonium Finishing Plant
                   and Spent Nuclear Fuels Projects. While the Office of Inspector
                   General recognizes that there are many competing priorities for limited
                   cleanup funds, Richland now faces the possibility that the regulatory
                   milestone for TRU waste retrieval will be missed.

                   Further, the Department has not performed sufficient analysis to
                   determine the optimal operating levels for the WRAP Facility to meet
                   cleanup milestones and minimize total project costs. To its credit, the
                   Department has performed several studies of waste characterization
                   activities and determined that mobile units could be used to perform
                   some of these activities more economically than the WRAP. While
                   these studies will assist the Department in reducing overall project
                   costs, additional analysis is needed to determine optimal retrieval rates
                   or processing levels to meet cleanup milestones at minimum costs.
                   Until waste retrieval rates are established, the Department cannot
                   determine optimal processing levels or determine the number of
                   additional personnel needed to operate the facility. Without such an
                   analysis, the Department cannot be assured that the WRAP facility and
                   the mobile units will be used cost-effectively. Also, until waste
                   retrieval rates are established, it may be premature for the Department
                   to deploy mobile facilities at the Hanford Site.


Page 3                                                                    Details of Finding
Missed Milestones and   If Richland cannot meet the Tri-Party Agreement milestone to
Costs                   retrieve almost 10,000 containers of TRU waste, resulting fines
                        could be as much as $5,000 for the first week and $10,000 for every
                        week thereafter until the waste is retrieved. Also, if the WRAP
                        facility continues to operate at its current level, Richland is not likely
                        to meet its performance plan goal to ship all legacy, contact-handled
                        TRU waste to WIPP by 2015. It should be noted that in May 2003, a
                        U.S. District Judge ruled that the Department must halt shipments of
                        TRU waste to the Hanford Site from out-of-state sites until all
                        litigation regarding TRU waste is resolved. This could impact those
                        Department sites planning to ship waste to the Hanford Site.

                        Further, the current operating plan results in unnecessary waste-
                        storage costs. Because the WRAP facility has been underutilized,
                        unprocessed containers of waste have been stored at the Central
                        Waste Complex. As of April 2003, the inventory of unprocessed
                        containers totaled about 4,000. The cost of storing unprocessed
                        containers totaled about $1.5 million between FYs 1999 and 2002,
                        and FY 2003 costs are estimated to be about $413,000.

RECOMMENDATIONS         We recommend that the Manager, Richland Operations Office:

                         1. Develop a definitive plan for expeditious TRU waste retrieval;
                            and,

                         2. After a retrieval plan is developed and approved, obtain an
                            analysis to determine optimal operating levels and staffing for
                            the WRAP facility to meet cleanup goals and minimize total
                            project costs.

                        We recommend that the Assistant Secretary for Environmental
                        Management:

                         3. Approach the State of Washington about renegotiating the Tri-
                            Party Agreement milestone based on attainable milestones
                            established in the new retrieval plan (from Recommendation 1
                            above);

                          4. Obtain a cost-benefit analysis to determine the most
                             economical use of the WRAP facility and mobile units to
                             characterize waste at optimal operating levels; and,

                         5. Work with Richland to ensure that revised plans for TRU waste
                            retrieval and processing are funded sufficiently to achieve

Page 4                                                                      Recommendations
MANAGEMENT REACTION         milestones and goals.
                      Management generally concurred with our finding and agreed that
                      significant issues must be resolved, particularly with respect to
                      integrating the TRU waste retrieval, processing and shipping
                      schedules to meet agreed on milestones. More specifically,
                      management stated that the Department will:

                         •   Prepare a revised plan for TRU waste retrieval;

                         •   Reexamine the operations of the WRAP facility once a waste
                             retrieval plan is developed and approved;

                         •   Complete two ongoing studies of waste characterization costs
                             at various sites versus using mobile processing units; and

                         •   Ensure that adequate resources are applied to achieve the
                             negotiated milestones and goals.

                      With regard to the recommendation to renegotiate the Tri-Party
                      agreement milestones, management indicated that the Trench 4
                      retrieval milestone has been under negotiation with the Washington
                      State Department of Ecology and the Environmental Protection
                      Agency for several years. More specifically, the Tri-Party
                      Agreement agencies are converging on an interim progress milestone
                      that would require the removal of more than 20,000 containers from
                      various Hanford trenches by the end of FY 2006, thereby
                      accelerating the retrieval of contact-handled TRU waste.
                      Environmental Management views these actions as sufficient to
                      satisfy the audit recommendation.

                      Management also indicated that they had completed a cost study on
                      the use of mobile units for TRU waste processing and had
                      commissioned for the completion of another study on waste
                      characterization costs. No further actions are planned with regard to
                      recommendation 4.

                      Management's verbatim comments can be found in Appendix 3 of
                      this report.




Page 5                                                            Management Reaction
AUDITOR COMMENTS
                   Management's comments are responsive to the intent of the report's
                   recommendations.

                   The Office of Inspector General recognizes that the Department has
                   been engaged in negotiations with the State of Washington, and we
                   understand that negotiated changes to retrieval milestones are a part of
                   those discussions. As detailed in the report, however, achievement of
                   the existing 2004 milestone is unlikely, in part, because the Department
                   did not have a detailed plan for retrieval. In our judgment, it would be
                   prudent for Department managers to develop such a plan – to include
                   realistic retrieval rates – prior to agreeing to a new milestone.




Page 6                                                                         Comments
Appendix 1
                                       PRIOR AUDIT REPORTS


         • Planned Characterization Capability at the Waste Isolation Pilot Plant (DOE/IG-0577,
           December 2002). The report identified that the planned waste characterization
           capability at WIPP is unlikely to expedite the removal of waste or save costs to the
           extent of management's estimates. In fact, our analysis disclosed that of the 26 sites
           with contact-handled TRU waste, the vast majority would not benefit from the
           centralized capability. Although the Department contended that additional
           characterization capabilities would inherently speed up the waste disposal process it did
           not perform a complete analysis to demonstrate where and how efficiencies would be
           gained. Without such an analysis the Department risks investing time and resources in
           an unnecessary capability, ultimately delaying cleanup, increasing costs, and creating
           new health and safety concerns.

         •   Utilization of the Department's Low-Level Waste Disposal Facilities (DOE/IG-0505,
             May 2001). This report identified that the Department did not adequately utilize
             existing low-level waste disposal capacity at the Hanford Site or Nevada Test Site
             because it did not have a comprehensive approach to maximize waste disposal. As a
             result, the Department did not realize the maximum benefit from its $30 million
             investment for low-level waste disposal operations at Hanford and Nevada.

         •   Planned Waste Shipments to the Waste Isolation Pilot Plant (WR-B-99-06, August
             1999). The audit identified planned schedules were based on the generator sites
             securing full funding, but the largest sites anticipated funding at approximately 75
             percent. Thus, there is no assurance that WIPP will be able to close by the dates cited in
             the Management Plan unless the generator sites receive full funding. Such closure
             delays will probably result in increased costs for the generator sites and for WIPP.

         •   Waste Incineration at the Oak Ridge Reservation (DOE/IG-0451, August 1999). The
             audit concluded that the Department did not operate the incinerator at the capacity
             permitted or the attainable capacity. The incinerator operated at between 10 and 20
             percent of its permitted capacity from FY 1996 to FY 1998. The incinerator operated
             below capacity because: it was designed to treat more waste than was planned for, the
             contractor had to balance all the priorities to meet Site Treatment Plan milestones
             delaying characterization of waste to be incinerated, and the State of Tennessee placed
             greater restrictions on the incineration of waste received from other states until local
             waste was disposed of.




Page 7                                                                                 Prior Audit Reports
Appendix 1 (continued)

  •   Waste Incineration at the Savannah River Site (DOE/IG-0453, October 1999). The audit identified
      that the incinerator was not operating at its permitted capacity. The incinerator was operating at
      about 8 percent of capacity and planned to operate at no more than 32 percent of capacity. There
      were three causes for operating at a low capacity including: the incinerator was designed and
      permitted to treat more waste than that available at SRS, there was a slow start-up to operating the
      incinerator, and the amount of incinerable waste was limited because of RCRA Land Disposal
      Restriction regulations.


  •   Waste Incineration at the Idaho National Engineering and Environmental Laboratory (DOE/IG-
      0454, December 1999). The audit concluded that the Department did not operate the incinerator at
      the capacity permitted or at the attainable capacity. The incinerator operated between 15 percent
      and 27 percent of permitted capacity and at between 24 percent and 44 percent of attainable
      capacity. The incinerator operated below capacity because downtime between runs of the
      incinerator was high and prioritization of funding to meet Site Treatment Plan milestones delayed
      segregation and characterization of waste to be incinerated.




Page 8                                                                                Prior Audit Reports
Appendix 2

OBJECTIVE     The objective of the audit was to determine if the Department was
              retrieving and processing its TRU waste at the Hanford Site in an
              expeditious and cost-effective manner.


SCOPE         The audit was performed between October 9, 2002, and July 16, 2003,
              at the Hanford Site in Richland, Washington. We reviewed the
              activities associated with the retrieval and processing of TRU waste and
              the utilization of the Waste Receiving and Processing facility from
              October 1999 through March 2003. The audit identified a material
              internal control weakness that management should consider when
              preparing its yearend assurance memorandum on internal controls.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Researched applicable Federal and Departmental regulations;

                 •   Reviewed prior audit reports related to the audit objective;

                 •   Toured the WRAP facility;

                 •   Identified regulatory milestones and cleanup goals established
                     for retrieval and processing of TRU waste at the Hanford Site;

                 •   Reviewed budget, cost, and performance data for the WRAP
                     facility during FYs 1999 through 2002;

                 •   Compared WRAP's actual processing levels to its design
                     capacity;

                 •   Evaluated results of internal Department studies regarding TRU
                     waste characterization processes and costs; and,

                 •   Estimated potential costs associated with missed milestones and
                     unnecessary storage of unprocessed waste.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed internal controls and performance measures established under
              the Government Performance and Results Act of 1993 related to the
              Department's management and operation of the WRAP facility.

Page 9                                        Objective, Scope, and Methodology
          We held an exit conference with the Associate Deputy Assistant
          Secretary for Integration and Disposition, Office of Environmental
          Management on September 30, 2003.




Page 10                                   Objective, Scope, and Methodology
Appendix 3




Page 11      Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
Appendix 3 (continued)




Page 14                  Management Comments
                                                                              IG Report No.: DOE/IG-0624

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
